HHS/OIG, Audit -"Review of Postretirement Benefit Costs Claimed by Pennsylvania Blue Shield,"(A-07-05-00185)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Postretirement Benefit Costs Claimed by Pennsylvania Blue Shield," (A-07-05-00185)
June 6, 2005
Complete
Text of Report is available in PDF format (1.79 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of the postretirement benefit (PRB) costs Pennsylvania
Blue Shield (PBS) claimed for Medicare reimbursement on an accrual basis.  PBS did not include
in its Final Administrative Cost Proposals (FACPs) all of the PRB costs that were allowable pursuant
to Federal regulations.  As a result, for FYs 1994 through 1997, PBS did not claim $153,675 of
PRB costs that were allowable for Medicare reimbursement.  In addition, PBS did not receive CMS
approval for its change in accounting practice for PRB costs.  PBS should revise its FACPs for
FYs 1994 through 1997 or submit a claim for additional allowable PRB costs of $153,675.  After
addressing the issues raised under Other Matters, PBS should seek approval for its change in accounting
practice.
PBS disagreed with our report and stated that:  The cost allocation method used by PBS differed
from the one used by the auditors in preparing this report.  In addition, several of the data
input numbers used by the auditors are not consistent with PBS data.  PBS also stated that it
did seek CMS approval for its change in accounting practice for PRB costs.  Additionally, PBS
disagreed with our statement in the Other Matters section that PBS should be precluded from including
unfunded PRB costs in any future claims to the Federal Government.  PBS believed that by requiring
contractors to use SFAS 106 in calculating PRB costs, the Federal Acquisition Regulations irreconcilably
conflicts with the Internal Revenue Service limitations on Voluntary Employee Benefit Association funding.